          U.S. ENVIRONMENTAL PROTECTION AGENCY
          OFFICE OF INSPECTOR GENERAL



                                         Catalyst for Improving the Environment


Site Visit Report



        American Recovery and Reinvestment
        Act Site Visit of Wastewater Treatment
        Plant—Phase II Improvements Project,
        City of Ottawa, Illinois

        Report No. 11-R-0700

        September 23, 2011
Report Contributors:                               Michael Rickey
                                                   Larry Brannon
                                                   Patrick McIntyre




Abbreviations

CFR    Code of Federal Regulations
EPA    U.S. Environmental Protection Agency


Cover photo:	 New rotary press system at the Ottawa, Illinois, wastewater treatment plant
              construction site. (EPA OIG photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                                  11-R-0700
                                                                                                       September 23, 2011
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review            American Recovery and Reinvestment Act Site 

The U.S. Environmental            Visit of Wastewater Treatment Plant—Phase II 

Protection Agency, Office of      Improvements Project, City of Ottawa, Illinois 

Inspector General, conducts
site visits of American            What We Found
Recovery and Reinvestment
Act of 2009 (Recovery Act)        We conducted an unannounced site visit of the wastewater treatment plant project
clean water and drinking water    in the City of Ottawa, Illinois. As part of our site visit, we toured the project,
projects. The purpose of the      interviewed city representatives and engineering and contractor personnel, and
visits is to confirm compliance   reviewed documentation related to Recovery Act requirements.
with selected Recovery Act
requirements. We selected the     The city could not provide sufficient documentation to support that some
wastewater treatment plant        manufactured goods used on the project met the Buy American requirements of
project in the City of Ottawa,    Section 1605 of the Recovery Act. In these instances, the documentation did not
Illinois, for review.             demonstrate clearly that items were either manufactured in the United States or
                                  substantially transformed in the United States. As a result, the state’s use of over
Background                        $3.8 million of Recovery Act funds on the Ottawa project is prohibited by
                                  Section 1605 of the Recovery Act, unless a regulatory option is exercised.
The city received a $7,720,293
loan from the State of Illinois
under the Water Pollution           What We Recommend
Control Loan Program. The
loan included $3,860,147 in       We recommend the Regional Administrator, Region 5, employ the procedures set
Recovery Act funds. The city      out in Title 2 of the Code of Federal Regulations (CFR) to resolve the
will use these funds to           noncompliance on the Ottawa project. In the event that the region decides to retain
rehabilitate and improve the      foreign-manufactured goods in the Ottawa project under 2 CFR §176.130 (c)(3),
city’s wastewater treatment       the region should either “reduce the amount of the award by the cost of the steel,
plant.                            iron, or manufactured goods that are used in the project or . . . take enforcement or
                                  termination action in accordance with the agency’s grants management
                                  regulations.”

                                  Neither the region nor the city agreed with our conclusion that the documentation
                                  was not sufficient to support Buy American compliance for some items. Based on
For further information,          additional documentation provided by the city, we agree that some items are now
contact our Office of             sufficiently supported, and we have revised the report accordingly. However,
Congressional, Public Affairs
                                  documentation is still insufficient in four instances.
and Management at
(202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110923-11-R-0700.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                            THE INSPECTOR GENERAL




                                       September 23, 2011

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act Site Visit of
          Wastewater Treatment Plant—Phase II Improvements Project,
          City of Ottawa, Illinois
          Report No. 11-R-0700


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Susan Hedman
               Regional Administrator, Region 5
               U.S. Environmental Protection Agency


This is our report on the subject site visit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency (EPA). The report summarizes the results of our site visit
to the Wastewater Treatment Plant—Phase II Improvements Project, City of Ottawa, Illinois.

We performed this site visit as part of our responsibility under the American Recovery and
Reinvestment Act of 2009 (Recovery Act). The purpose of our site visit was to determine the
city’s compliance with selected requirements of the Recovery Act pertaining to the Clean Water
State Revolving Fund Program. The Illinois Environmental Protection Agency approved the
city’s project. The city received a $7,720,293 loan, including $3,860,147 in Recovery Act funds.

The estimated direct labor and travel costs for this report are $170,910.

Action Required

The Agency disagreed with our recommendation, and the recommendation is considered
unresolved with resolution efforts in progress. In accordance with EPA Manual 2750, Chapter 3,
Section 6(f), you are required to provide us your proposed management decision for resolution of
the findings contained in this report before you formally complete resolution with the recipient.
As part of the audit resolution process, your proposed decision is due in 120 days, or on
January 20, 2012. To expedite the resolution process, please e-mail an electronic version of your
proposed management decision to adachi.robert@epa.gov.
Your response will be posted on the Office of Inspector General’s public website, along with our
memorandum commenting on your response. Your response should be provided as an Adobe
PDF file that complies with the accessibility requirements of Section 508 of the Rehabilitation
Act of 1973, as amended. The final response should not contain data that you do not want to be
released to the public; if your response contains such data, you should identify the data for
redaction or removal. We have no objection to the further release of this report to the public.
This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or Robert
Adachi, Product Line Director, at (415) 947-4537 or adachi.robert@epa.gov.
American Recovery and Reinvestment Act                                                                                             11-R-0700 

Site Visit of Wastewater Treatment Plant—Phase II

Improvements Project, City of Ottawa, Illinois 



                                      Table of Contents 

   Purpose          ....................................................................................................................    1


   Background .................................................................................................................             1


   Scope and Methodology.............................................................................................                       1


   Results of Site Visit.....................................................................................................               2


           Buy American Requirements................................................................................                        2

           Wage Rates .........................................................................................................            11     

           Limits on Use of Funds and Reporting Requirements..........................................                                     11 

           Contract Procurement ..........................................................................................                 12     


   Recommendation ........................................................................................................                 12


   City, Region 5, and State Responses........................................................................                             12


   Office of Inspector General Comment ......................................................................                              13


   Status of Recommendations and Potential Monetary Benefits..............................                                                 15




Appendices
   A       City of Ottawa Response to Draft Report.........................................................                                16


   B       Agency Response to Draft Report....................................................................                             22


   C       Illinois EPA Response to Draft Report .............................................................                             38


   D       Distribution ........................................................................................................           39

Purpose
            The purpose of our unannounced site visit was to determine whether the City of
            Ottawa, Illinois, complied with selected requirements of the American Recovery
            and Reinvestment Act of 2009 (Recovery Act), P.L. 111-5, pertaining to the
            wastewater treatment plant project jointly funded by the Recovery Act and the
            Illinois Water Pollution Control Loan Program.

Background
            In May 2009, the U.S. Environmental Protection Agency (EPA) awarded over
            $177 million of Recovery Act funds to the State of Illinois to capitalize its
            revolving loan fund, which provides financing for construction of wastewater
            treatment facilities and other authorized uses. In addition to the regulatory
            requirements at Title 40 Code of Federal Regulations (CFR), Chapter 1,
            Subchapter B, the assistance award was subject to 2 CFR Part 176, “Requirements
            for Implementing Sections 1512, 1605, and 1606 of the American Recovery and
            Reinvestment Act of 2009 for Financial Assistance Awards.”

            In January 2010, the city accepted a $7,720,293 loan from the Illinois
            Environmental Protection Agency. The terms of the loan were based on an annual
            fixed loan rate of zero percent on a 20-year note. The loan included $3,860,147 in
            Recovery Act funds, of which half is to be repaid to the state. The loan balance
            was funded by the state’s Water Pollution Control Loan Program. The city used
            these funds to rehabilitate and improve the city’s wastewater treatment plant.

Scope and Methodology
            Due to the time-critical nature of Recovery Act requirements, we did not perform
            this assignment in accordance with generally accepted government auditing
            standards. Specifically, we did not perform certain steps that would allow us to
            obtain information to assess the city’s internal controls and any previously
            reported audit concerns. As a result, we do not express an opinion on the
            adequacy of the city’s internal controls or compliance with all federal, state, or
            local requirements.

            We made our unannounced site visit on October 5–8, 2010. On November 18–19,
            2010, and again on April 4–5, 2011, we visited the city to perform additional
            work related to Buy American compliance. During our visits, we:

               1.	 Toured the project
               2.	 Interviewed city, engineering, and contractor personnel
               3.	 Reviewed documentation maintained by the city, its engineer, and
                   contractors on the following matters:
                       a.	 Buy American requirements under Section 1605 of the Recovery
                           Act


11-R-0700                                                                                    1
                       b.	 Wage rate requirements under Section 1606 of the Recovery Act
                       c.	 Limits on funds and reporting requirements under Sections 1604
                           and 1512 of the Recovery Act
                       d.	 Contract procurement

Results of Site Visit
            The city could not provide sufficient documentation in four instances to assure
            compliance with the Buy American requirements of the Recovery Act. Unless the
            city can comply with Buy American requirements or obtain a waiver from EPA,
            the city’s project to rehabilitate its wastewater treatment plant would not be
            eligible for Recovery Act funds. We did not identify any other Recovery Act
            issues. We summarize specific results below.

            Buy American Requirements

            Ottawa did not provide sufficient documentation to show that some manufactured
            goods used in the project, funded in part by the Recovery Act, were produced or
            manufactured in the
            United States. In two
            instances, we
            identified materials
            on site as foreign
            made. The federal
            grant to capitalize
            Illinois’s revolving
            loan fund with
            Recovery Act funds
            required that all
            projects use
            manufactured
                                    Foreign-made steel pipe for the Ottawa project. (EPA OIG photo)
            goods produced in
            the United States, unless certain exceptions apply as provided for in 2 CFR
            §176.60. The state included the Buy American requirements in the loan
            agreement with Ottawa. However, we do not believe that the city fully understood
            the procedures necessary to determine and document compliance. Further, the
            state had not visited the project site.

            Because the city cannot show that it complied with the Buy American
            requirements and has not obtained a waiver from EPA, the treatment plant’s
            rehabilitation project presently is not eligible for Recovery Act funding. As a
            result, the state’s use of over $3.8 million of Recovery Act funds on the Ottawa
            project is prohibited by Section 1605 of the Recovery Act, unless a regulatory
            option is exercised.




11-R-0700                                                                                         2
                    Title 2 CFR §176.60 states that Section 1605 of the Recovery Act prohibits the
                    use of Recovery Act funds for a project unless all of the iron, steel, and
                    manufactured goods used in the project are produced in the United States. The
                    regulation requires that this prohibition be consistent with U.S. obligations under
                    international agreements, and provides for a waiver under three circumstances.

                    Title 2 CFR §176.140(a)(1) defines a manufactured good as a good brought to the
                    construction site for incorporation that has been processed into a specific form
                    and shape, or combined with raw materials to create a material that has different
                    properties than the properties of the individual raw materials. There is no
                    requirement with regard to the origin of components in manufactured goods, as
                    long as the manufacture of the goods occurs in the United States.1 In the case of a
                    manufactured good that consists in whole or in part of materials from another
                    country, a domestically manufactured good is one that has been substantially
                    transformed in the United States into a new and different manufactured good
                    distinct from the materials from which it was transformed.2

                    To assist recipients of Recovery Act funds, EPA developed several guidance
                    documents and Internet-based training modules explaining the concept of
                    substantial transformation and the types of documentation needed to support a
                    substantial transformation determination. Key documents include:

                        •	 Determining Whether “Substantial Transformation” of Components Into a
                           “Manufactured Good” Has Occurred in the U.S.: Analysis, Roles, and
                           Responsibilities, dated October 22, 2009 (Determining Substantial
                           Transformation)
                        •	 Buy American Provisions of ARRA Section 1605 Questions and Answers—
                           Part 1, revised September 22, 2009 (Buy American Q&A Part 1)
                        •	 Buy American Provisions of ARRA Section 1605 Questions and
                           Answerers—Part 2, dated November 16, 2009 (Buy American Q&A
                           Part 2)

                    These guidance documents provide:

                        •	 An explanation of substantial transformation
                        •	 A matrix of questions for determining whether substantial transformation
                           has occurred in the United States
                        •	 The requirements for the type of documentation needed to support 

                           substantial transformation 

                        •	 The need to retain the documentation to support compliance with 

                           Section 1605 of the Recovery Act 

                    During our initial site visit, we noted that stainless steel drop pipes had
                    manufacturing markings from Malaysia, China, and Taiwan. We also noted that
1
    Title 2 CFR §176.70(a)(2)(ii) and Title 2 CFR §176.160(a), “Domestic iron, steel, and/or manufactured good.”
2
    Title 2 CFR §176.160(a), “Domestic iron, steel, and/or manufactured good.”


11-R-0700                                                                                                          3
               some of the electrical panels were made in Mexico. To explore this issue further,
               we reviewed supporting documentation to confirm Buy American compliance for
               57 items listed in various sections of the Bidding, Contract, and Specifications
               document for the Ottawa project. The supporting documentation for 53 items was
               sufficient to confirm compliance with the Buy American requirements.




                 Pipe at the Ottawa project site labeled as made in Malaysia (left) and China. (EPA OIG photo)


               The documentation provided for the equipment items in table 1 did not provide
               meaningful and specific technical descriptions of the manufacturing process to
               determine whether the items were manufactured or substantially transformed in
               the United States.

      Table 1: Equipment for which supporting documentation was not sufficient to support
      Buy American compliance
       Equipment                           Model            No. units     Company
                                           Flygt
       Submersible pumps                   NP3085-183            2        ITT Water and Wastewater U.S.A.
                                           Flygt
       Submersible chopper pump            FP3127.390            1        ITT Water and Wastewater U.S.A.
                                           Kaeser
       Positive displacement blowers       EB 420C               2        Kaiser Compressors, Inc.
                                           KTurbo
       Centrifugal blowers                 TB 100-0.6S           3        KTurbo USA
      Source: OIG analysis.

               There was no clear support that the equipment had been substantially transformed
               into a “new and different manufactured good distinct from the materials from
               which it was transformed,” as defined in 2 CFR 176.160. In all four instances, the
               equipment items were assembled in the United States by companies with foreign
               affiliations. The supporting documentation did not provide clear and persuasive
               evidence that the assembly processes completed in the United States were
               sufficiently complex or meaningful to qualify as substantial transformation.

               Recipients of Recovery Act funds must have adequate, project-specific
               documentation to support compliance with Buy American requirements. Without
               such documentation, compliance cannot be credibly and meaningfully



11-R-0700                                                                                                        4
                demonstrated.3 For items substantially transformed in the United States, the
                documentation must be meaningful, informative, and contain specific technical
                descriptions of the activities in the actual transformation process. The
                documentation cannot simply assert a conclusion or describe an end state.4
                Substantial transformation determinations are always made on a case-by-case
                basis and cannot occur by undergoing a simple combining or packaging
                operation.5 Assembly operations that are minimal or simple, as opposed to
                complex or meaningful, generally will not result in a substantial transformation.6
                Design, planning, procurement, component production, or any other step prior to
                the process of physically working on and bringing together components to form
                an item incorporated into the project cannot constitute or be a part of substantial
                transformation. Activities that occur at the project site are generally considered
                construction, not manufacturing.7

                        Flygt Pumps

                        ITT Water and Wastewater U.S.A. provided two letters to Ottawa to
                        support that the submersible pumps it supplied complied with Buy
                        American requirements. The first letter, dated February 24, 2010, made
                        general statements about Buy American requirements and EPA guidance,
                        and asserted, “With the strength of ITT’s nearly 10 pump factories located
                        in more than five states, ITT WWW will comply fully with this
                        requirement by assembling Flygt brand model NP3085 and FP3127
                        submersible pumps listed on quote 2009-CHI-1810 in a facility located in
                        the United States. . . .”

                        The statement is both prospective and too general to draw any conclusion
                        regarding the actual manufacturing process. EPA’s Buy American Q&A
                        Part 2 states that documentation should include meaningful, informative,
                        and specific technical descriptions of the activities in the actual process
                        and not simply assert a conclusion or describe an end state.

                        On June 1, 2011, a business development manager for ITT Water and
                        Wastewater U.S.A. certified that the Flygt model NP3085-183
                        submersible pumps and the FP3127.390 submersible chopper pump were
                        substantially transformed based on processes performed in the United
                        States that were complex and meaningful. According to the certification,
                        the processes took a substantial amount of time, were costly, were
                        completed by highly skilled labor, required a number of different
                        processes, and added substantial value. To support this claim, the
3
  Buy American Provisions of ARRA Section 1605 Questions and Answerers—Part 2, dated November 16, 2009,
question 5, p. 4.
4
  Determining Whether “Substantial Transformation” of Components Into a “Manufactured Good” Has Occurred 

in the U.S.: Analysis, Roles, and Responsibilities, dated October 22, 2009, p. 6.

5
  Ibid.

6
  Ibid.

7
  Ibid., pp. 7 and 8.



11-R-0700                                                                                                5
                        manufacturer provided additional detail and pictures of its Pewaukee,
                        Wisconsin, facility in a letter, also dated June 1, 2011.

                        The June 1, 2011, letter stated that prior to the manufacturing process,
                        significant design, facility development, engineering, logistics, scheduling,
                        and training was accomplished in addition to sales company activities,
                        which included defining, sizing, and selecting proper equipment and
                        ordering materials, which took an average of 48 minutes per pump unit.
                        Materials handling, which included receipt of individual components,
                        inventorying of materials, material picking, cable cutting, and data plate
                        printing, took an average of 82 minutes per pump unit.

                        This information is irrelevant when determining whether goods are
                        manufactured in the United States. EPA guidance, Determining
                        Substantial Transformation, states that design, planning, procurement,
                        component production, or any other step prior to the process of physically
                        working on or bringing together the components to form an item
                        incorporated into the project cannot constitute or be a part of substantial
                        transformation.

                        EPA’s Determining Substantial Transformation also states that no good
                        “satisfies the substantial transformation test by . . . having merely
                        undergone ‘[a] simple combining or packaging operation.’”8 Secondly,
                        “[a]ssembly operations which are minimal or simple, as opposed to
                        complex or meaningful, will generally not result in a substantial
                        transformation.”9 The guidance also states:

                                An oversimplified summary of substantial transformation
                                analysis is to ask whether the activities in the U.S.
                                substantially transformed the components that go into the
                                completed item. . . . Because assembly is in most cases
                                further down the spectrum towards non-transformative
                                work, a more demanding standard is appropriate. . . .

                        According to the Flygt USA Internet site (http://www.flygtus.com), ITT
                        Water and Wastewater is an international company headquartered in
                        Sweden. Manufacturing facilities are in Sweden (main plant), China, and
                        South America. The company has a corporate office, which supports sales
                        and services, and branch offices in the United States. The Internet site lists
                        no manufacturing facilities in the United States. For an international
                        company with manufacturing facilities throughout the world, it is
                        important to clearly understand the roles of related companies, including
                        detailed descriptions and cost information of materials and components

8
  Determining Whether “Substantial Transformation” of Components Into a “Manufactured Good” Has Occurred 

in the U.S.: Analysis, Roles, and Responsibilities, dated October 22, 2009, p. 6.

9
  Ibid. 



11-R-0700                                                                                                6
                   that are used in the manufacturing processes performed by related
                   companies. EPA’s Buy American Q&A Part 1 states that if all the pieces
                   are shipped by one company with the intent of providing all components
                   necessary to be assembled in a functional good, then substantial
                   transformation would not occur and the product would not be a U.S.-made
                   good.

                   We do not believe that the manufacturer’s letters adequately support its
                   claim of substantial transformation by complex or meaningful assembly.
                   We find no evidence that components were transformed. The company did
                   not provide information about the manufacturing processes completed
                   outside the United States by related companies. The company did not
                   support its claim that the processes were costly and tripled the value of the
                   components with any type of cost breakdown or detail. The company did
                   not provide a description as to the type of skills and certifications needed
                   by the labor force to assemble and test the pumps. Without detailed
                   descriptions of the entire manufacturing process and supporting
                   documentation, we cannot determine whether the Flygt pumps met the
                   Buy American requirements.

                   Kaeser Blower

                    Kaeser Compressors, Inc., provided a letter to Ottawa dated October 29,
                    2010, to support substantial transformation. The letter stated that for
                    Recovery Act–funded projects, the company purchases a base chassis of
                    proprietarily designed components from the parent company, Kaeser
                                            Kompressoren, GmbH, located in Germany. This
                                            chassis consists of components such as the blower
                                            block, silencer base, and enclosure. The items
                                            added in the United States include the electric
                                            motor, pulleys, belts, relief valves, and expansion
                                            joints. The letter described the building process as
                                            mounting and aligning the motor and v-belt pulley
                                            drive, adjusting and installing the pressure relief
                                            valve(s), and assembling and installing of check
                                            valves, fan motors, gauges, and switches.
                                            Depending on the size and complexity of the
                                            specification, additional wiring and setting of
                                            ancillary devices may be required. Each unit
                                            requires 16 to 20 hours to build. The assembly
                                            procedures, combined with the U.S.-sourced items,
                                            account for 35 to 50 percent of the package’s total
            Kaeser blower. (EPA OIG photo)
                                            value.




11-R-0700                                                                                      7
            The October 29
            letter does not
            provide a
            meaningful and
            specific technical
            description of the
            assembly process
            in the United
            States that would
            enable us to
            determine whether
            the Ottawa blowers
            were manufactured
            or substantially       Kaeser blower label, indicating product was made in
            transformed in the Germany. (EPA OIG photo)
            United States.
            Product literature and physical inspection of the equipment at the
            construction site showed that the chassis manufactured in Germany was
            essentially a blower without a drive system. The documentation did not
            explain how the addition of the drive system (motor, pulley, and belts)
            substantially changed or transformed the character and use of the blower
            chassis manufactured in Germany and imported into the United States.
            The number of assembly hours in the United States and the added value
            are not meaningful without some context, i.e., a demonstration of the
            relationship of the assembly time in the United States to the number of
            hours and operations spent to manufacture the chassis obtained from the
            parent company in Germany. Finally, the letter is too general and does not
            specifically address the assembly of the blowers incorporated into the
            Ottawa project. Without additional documentation, there is no evidence
            that blowers have been substantially transformed into a “new and different
            manufactured good distinct from the materials from which it was
            transformed,” as described in 2 CFR 176.160. This documentation should
            provide details about the entire manufacturing and assembly process to
            determine that the assembly process in the United States was complex or
            meaningful as required to qualify as substantial transformation.

            KTurbo Blower

            The sole support for three KTurbo TB-100-0.6S multistage centrifugal
            blowers was a May 31, 2010, signed statement by the sales manager that
            “all iron, steel an (sic) Manufactured Goods provided by the manufacturer
            above is made in the United States in full conformance with requirements of
            ARRA Section 1605 Buy American requirements.” However, catalog
            literature showed that KTurbo’s manufacturing facility, head office, and
            research and development center were located in the Republic of Korea.
            KTurbo had an assembly and testing facility in Batavia, Illinois, near


11-R-0700                                                                            8
                         Chicago. In catalog photographs, the Batavia assembly and testing facility
                         resembled a warehouse and training facility. Information on the website
                         http://www.industrydirect.com stated that KTurbo’s facility in Batavia was
                         less than 2,000 square feet in size, was subcategorized as a warehouse, and
                         employed one to four staff.

                          In October 2009, Region 5, along with a contractor, visited KTurbo’s
                          Batavia facility. At that time, no manufacturing was taking place. KTurbo
                          representatives described its intended assembly/manufacturing process.
                          Region 5 and the contractor were told that part of the blower assembly
                          would be imported, and part of the assembly would be done in Batavia.
                                                                         Both the contractor’s report and
                                                                         the region’s site visit summary
                                                                         included detail about the number
                                                                         or percentage of components that
                                                                         would be sourced from the United
                                                                         States. However, 2 CFR
                                                                         §176.70(a)(2)(ii) states, “there is
                                                                         no requirement with regard to the
                                                                         origin of components or
                                                                         subcomponents . . . as long as the
                                                                         manufacturing takes place in the
                                                                         United States.” Therefore, the
            KTurbo blower parts at the Batavia facility.
            (photo courtesy City of Ottawa)
                                                                         source of components cannot be
                                                                         part of the substantial
                                                       transformation determination. Further, EPA’s Buy
                                                       American Q&A Part 1 states that all substantial
                                                       transformation cases are matters of degree;
                                                       however, the transformation or change to imported
                                                       materials brought about by manufacturing or other
                                                       processes in the United States must be substantial.
                                                       Simple assembly or stand-alone testing is not
                                                       sufficient to support substantial transformation of
                                                       manufactured goods in the United States.

                                                  Both Region 5 and Office of Water staff believe that
                                                  substantial transformation could occur at the
                                                  Batavia, Illinois, facility. We have not been
                                                  provided sufficient documentation to determine that
                                                  substantial transformation can or will occur at
                                                  Batavia. We cannot determine whether the assembly
                                                  taking place in Batavia is complex or meaningful, or
                                                  simple assembly. Further, because the blower parts
        Chassis assembled in Batavia from         are manufactured in a related foreign facility and
        parts shipped from Korea. (photo          sent to the United States for final assembly, we need
        courtesy City of Ottawa)                  detailed descriptions of the manufacturing process



11-R-0700                                                                                                  9
                   and supporting documentation to determine whether the KTurbo blowers
                   meet Buy American requirements. As previously noted, Buy American
                   Q&A Part 1 states that if all the pieces are shipped by one company with
                   the intent of providing all components necessary to be assembled in a
                   functional good, then substantial transformation would not occur and the
                   product would not be a U.S.-made good.

                   On April 19, 2011, KTurbo USA, Inc., in Batavia, Illinois; KTurbo, Inc.,
                   located in Chungbuk, Korea; and certain principals were placed on the
                   federal government’s Excluded Parties List System for an indefinite
                   period. The companies and principals were suspended from receiving
                   federal funds based on an indictment or other adequate evidence to suspect
                   the commission of an offense that is a cause for debarment. The company
                   provided certifications to multiple municipalities containing allegedly
                   fraudulent statements that KTurbo blowers were manufactured in the
                   United States and were in conformance with the Buy American provisions
                   in the Recovery Act.

            We do not believe that the city initially understood the process and documentation
            necessary to comply with Buy American requirements prior to our visit. The city
            relied on its contractor and its resident engineer to assure compliance. The city
            included the Buy American requirement in the construction contract, but did not
            include any specific Buy American compliance responsibilities in the engineering
            agreement. About 8 months after the initiation of construction, the city assigned
            the resident engineer to document Buy American compliance. The contractor
            obtained the manufacturer documentation and submitted the information to the
            resident engineer. We found no evidence that the city was directly involved in
            reviewing Buy American documentation.

            The contractor relied on the resident engineer, as the representative of the city, to
            determine the adequacy of the Buy American certifications and supporting
            documentation submitted by the supplier. The engineer reviewed the
            documentation as part of the shop drawing review. At the time of our review, the
            resident engineer stated that the contractor and the city, not the engineering firm,
            were responsible for ensuring Buy American compliance. The resident engineer
            noted that the engineering firm had neither received any training to understand
            whether Buy American certifications were adequate or legitimate, nor received
            any additional methods to research this information. In cases where the contractor
            submitted shop drawing information without Buy American documentation, the
            resident engineer returned the submission to the contractor for appropriate
            followup. On October 29, 2010, during a weekly status meeting, the city assigned
            additional responsibility to the resident engineer to document Buy American
            compliance based on information provided by the contractor.

            The city also told us that the state had not visited the project. We spoke with a
            state project manager familiar with the Ottawa project. He stated that the state had



11-R-0700                                                                                      10
            done little on-site monitoring of municipal Recovery Act projects because of the
            large number of projects and the state’s limited resources. The project manager
            also said that he was not aware that the city had contacted the state to request
            guidance related to areas of uncertainty specific to federal requirements when
            using Recovery Act funds for its project.

            The city, its engineering firm, and contractors used information we provided
            during the site visits to enhance their understanding of Buy American
            requirements, which assisted them in making Buy American determinations for
            the remainder of the project. The engineering firm used EPA guidance to reject
            inadequate Buy American documentation. The foreign-made steel pipes and
            electrical panels identified during our site visit were replaced with American-
            made goods. The prime contractor rejected questionable equipment and asked
            vendors to provide goods that were better supported as being manufactured or
            substantially transformed in the United States.

            However, based on our review of supporting documentation for four items, the
            city did not comply with Buy American requirements. The Recovery Act does not
            permit the use of Recovery Act funds unless the requirements of Section 1605 are
            met. Consequently, the state’s use of Recovery Act funds on the Ottawa project is
            not permitted.

            Wage Rates

            The construction contractor and subcontractor complied with Section 1606 of the
            Recovery Act. We interviewed all general contractor and subcontractor
            employees at the construction site on October 5, 2010, to obtain information about
            their job duties, training, qualifications, and compensation. We compared the pay
            rates to those specified by the U.S. Department of Labor for workers in La Salle
            County, Illinois, where Ottawa is located. All employees were paid union wages
            equal to or above the required wage rate specified by the U.S. Department of
            Labor.

            Limits on Use of Funds and Reporting Requirements

            Ottawa complied with Recovery Act Sections 1604 and 1512(c). Based on our
            review of the loan document and a visual inspection of the construction site,
            Ottawa has not used Recovery Act funds for any prohibited facilities as described
            in Section 1604 of the Recovery Act. We also reviewed quarterly reports and
            supporting documentation prepared by the city’s project engineer and submitted
            to the state to verify that Ottawa complied with the reporting requirements in
            Section 1512(c) of the Recovery Act.




11-R-0700                                                                                     11
            Contract Procurement

            We did not identify any issues of concern related to contract procurement.
            Ottawa publicly advertised for sealed bids and received 10 bids. Based on the
            engineer’s recommendation, the city awarded the contract to the lowest bidder.
            We reviewed the bid tabulation and also contacted several of the unsuccessful
            bidders to obtain their viewpoint on the bidding process. We did not identify any
            inappropriate or unfair bidding practices.

Recommendation
            We recommend that the Regional Administrator, Region 5:

                   1.	 Employ the procedures set out in 2 CFR §176.130 to resolve the
                       noncompliance on the Ottawa project. In the event that the region makes
                       a determination to retain foreign-manufactured goods in the Ottawa
                       project under 2 CFR§176.130 (c)(3), the region should either “reduce
                       the amount of the award by the cost steel, iron, or manufactured goods
                       that are used in the project or . . . take enforcement or termination action
                       in accordance with the agency’s grants management regulations.”

City, Region 5, and State Responses
            The OIG received comments on the draft report from the City of Ottawa,
            Region 5, and the Illinois Environmental Protection Agency. The City of Ottawa
            also provided supplemental documentation to support its comments.

            The city disagreed with our conclusion that the documentation for several items
            did not support compliance with Buy American requirements. The city stated that
            it had worked diligently to comply and noted that the contract documents did not
            require the general contractor to provide Buy American documentation until the
            iron, steel, or manufactured goods were ready to be incorporated into the project.
            The city stated that the final assessment of Buy American compliance could not
            be determined until the projected construction completion date of October 15,
            2011. The city stated that it had provided sufficient documentation for all but one
            item identified in the draft report, the KTurbo blowers, which the city believed
            would be substantially transformed in the company’s Batavia, Illinois, facility.
            The city planned to send additional documentation in the near future. The city
            also stated that it believed that the Kaeser blowers were acceptable based on the
            company’s October 29, 2010, letter and an understanding that similar blowers
            were found acceptable to EPA on another project. The full text of the city’s
            comments and the OIG’s detailed response are included in appendix A.

            Region 5 did not agree with the conclusions in the draft report. The region
            provided an initial response on June 23, 2011, and stated that it would review the
            Buy American documentation for compliance by July 29. In its second response,


11-R-0700                                                                                      12
            the region concluded that the documentation was sufficient to support Buy
            American compliance for all the items questioned in the draft report except for the
            KTurbo blowers, which were still being built. The region stated that it would
            monitor the process and take corrective action if it subsequently found that the
            item did not meet the test of substantial transformation. The region stated that it
            would not reduce the amount of Recovery Act funds applied to this project at this
            time. The region’s second response is in appendix B.

            Illinois EPA agreed with our recommendation. A copy of the state’s response is in
            appendix C.

Office of Inspector General Comment
            Our recommendation remains unchanged. We modified our report based on the
            comments and additional documentation. However, we do not agree with the city
            and the region that all items except the KTurbo blowers comply with Buy
            American requirements. We believe that supporting documentation is not
            sufficient to support Buy American compliance in four instances. Except for the
            June 21, 2011, letter from KTurbo USA, neither the city nor the region identified
            any new documentation that we had not already evaluated during the course of
            our review.

            The documentation provided for the questioned equipment items did not provide
            sufficiently meaningful and specific technical descriptions of the manufacturing
            process to enable us to determine whether the items were manufactured or
            substantially transformed in the United States. The companies did not provide
            clear support that the equipment had been substantially transformed into a “new
            and different manufactured good distinct from the materials from which it was
            transformed,” as defined in 2 CFR 176.160. In all four instances, the equipment
            items were assembled in the United States by companies with foreign affiliations.
            The supporting documentation did not provide clear and persuasive evidence that
            the assembly processes completed in the United States were complex or
            meaningful to support that substantial transformation occurred.

            With regard to the Kaeser blowers, the region stated that EPA Office of Water
            staff engineers provided “anticipatory” oversight to address the issue of
            substantial transformation to determine whether the products were actually
            manufactured in the United States. Office of Water staff engineers opined that
            substantial transformation is occurring at Kaeser’s Fredericksburg, Virginia,
            facility, and that the products are therefore made in the United States. An Office
            of Water e-mail message to Kaeser, dated November 1, 2010, documents this
            opinion. During our review, we discussed the November 1, 2010, e-mail with
            Office of Water staff. We were not made aware that the Office of Water had any
            additional information beyond Kaeser’s October 29, 2010, letter, which we
            determined to be insufficient in this report. EPA’s Buy American Q&A Part 2
            states, “Substantial transformation determinations are made by assistance


11-R-0700                                                                                    13
            recipients . . . EPA does not and will not make determinations as to substantial
            transformations . . . EPA’s role under §1605 is to review waiver requests. . . .”
            Office of Water staff providing an opinion on substantial transformation to Kaeser
            is inconsistent with EPA’s guidance and its role under Section 1605 of the
            Recovery Act.




11-R-0700                                                                                  14
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed-To
    No.      No.                         Subject                         Status1      Action Official           Date      Amount      Amount

     1       12     Employ the procedures set out in 2 CFR §176.130         U      Regional Administrator,                 $3,860
                    to resolve the noncompliance on the Ottawa                           Region 5
                    project. In the event that the region makes a
                    determination to retain foreign-manufactured goods
                    in the Ottawa project under 2 CFR§176.130 (c)(3),
                    the region should either "reduce the amount of the
                    award by the cost of the steel, iron, or
                    manufactured goods that are used in the project or
                    . . . take enforcement or termination action in
                    accordance with the agency's grants management
                    regulations."




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




11-R-0700                                                                                                                                   15
                                                                                        Appendix A

                                 City of Ottawa Response to Draft Report
City Commissioners                                                                        Pool, Leigh & Kopko
                                                                                            Corporation Counsel

      Daniel Aussem                                                                        Donald J. Harris
      Accounts & Finance                                                                      City Treasurer
                                               ROBERT M. ESCHBACH
                                                                                            David A. Noble
Wayne A. Eichelkraut, Jr.
        Public Property
                                                    MAYOR                                      City Engineer

                                        301 W. MADISON STREET, OTTAWA, ILLINOIS 61350       Shelly L. Munks
      Dale F. Baxter                                                                            City Clerk
 Streets & Public Improvements
                                                                                         Phone: 815-433-0161
   Edward V. Whitney                                                                      Fax: 815-433-2270
    Public Health & Safety
                                                                                         www.cityofottawa.org




      June 22, 2011

      Robert Adachi
      Director of Forensic Audits
      USEPA
      Office of Inspector General
      Washington, DC 20460

      Re:           Draft Report:
                    American Recovery and Reinvestment Act Site Visit of
                    Wastewater Treatment Plant-Phase II Improvements Project
                    City of Ottawa, Illinois
                    Project No. OA-FY11-A-0001

      This is the City of Ottawa response to the Draft Report.

              In February 2009, the ARRA program was passed in an effort to put Americans
      back to work. The program was designed to support projects that were “shovel ready.”
      The plans and specifications for the project at issue here, the City of Ottawa
      Wastewater Treatment Plant, were substantially complete at the time ARRA was
      passed. It was the perfect “shovel ready” project. Being one of the first projects funded
      under ARRA has brought many challenges. First, the construction documents had to be
      modified to comply with ARRA requirements. Second, and more importantly, both the
      City of Ottawa and the enforcing agencies have had to struggle with the interpretation
      and application of ARRA’s requirements. It has become clear that all the parties—the
      City, the USEPA and the Inspector General—have been working their way through the
      requirements of the ARRA and trying to give life and “teeth” to those requirements. It is
      unfair to suggest that the City alone has been uninformed and ill-prepared when the



      11-R-0700                                                                                         16
representatives of other government agencies have expressed similar confusion over
some of the ARRA’s requirements. As the federal agencies made determinations that
affected the City’s obligations, the City worked diligently to comply with those
determinations and to gather the information necessary to satisfy USEPA and the OIG.

OIG Response 1: We recognize that the Recovery Act’s Buy American requirements were new,
and that projects were required to be under contract or construction 12 months after the Recovery
Act was signed. The city accepted funds from the State of Illinois through the Water Pollution
Control Loan Program. The loan agreement between the city and the Illinois Environmental
Protection Agency stated that acceptance of the loaned funds required the city to “comply with
any future reporting and/or accountability requirements that may result as a condition for
receiving ARRA funds.” Further, paragraph 16 of the loan agreement’s standard conditions
required Buy American compliance and incorporated by reference a notice on the Illinois
Environmental Protection Agency’s Internet site that provided guidance on Buy American
compliance. If the city was unclear about the procedures necessary to fulfill its responsibilities
under the loan agreement, the city should have sought guidance from the state. In addition, EPA
published several training and guidance documents on its public Internet site to assist recipients
in meeting Recovery Act requirements.

       Initially, the City would note that the contract documents for the project require
the general contractor to provide and document that “all iron, steel and manufactured
goods used in the project are produced in the United States” as defined in Section 1605
of ARRA. However, the contract documents also provide that such documentation is
not required until the iron, steel or manufactured goods are ready to be incorporated
into the project. The work is currently only 93% complete with an expected completion
date of October 15, 2011. Consequently, there are products for which the required
documentation has not yet been provided to the City. Only when the project is complete
and all the documentation has been provided can a final assessment of the City’s
compliance with ARRA be reached.

OIG Response 2: The city’s procedure to wait until iron, steel, or manufactured goods were
ready to be incorporated into the project before confirming compliance with Buy American
requirements was risky and not fully consistent with regulations. For example, both 2 CFR
176.100, “Timely determination concerning the inapplicability of section 1605 of the Recovery
Act,” and 2 CFR 176.150, “Notice of Required Use of American Iron, Steel, and Manufactured
Goods - Section 1605 of the American Recovery and Reinvestment Act of 2009,” suggest a
waiver process that takes place before funds are obligated. Further, 2 CFR 176.120,
“Determinations on late requests,” provides specific procedures for instances in which a recipient
requests a determination regarding the inapplicability of Section 1605 after obligating Recovery
Act funds. The award official may deny the request. If an exception determination is made after
funds are obligated for a project, the award official must amend the award to allow the use of
foreign iron, steel, and/or relevant manufactured goods. In certain circumstances, the award
official must adjust the award amount, redistribute budgeted funds, and/or take other appropriate
actions to cover the costs associated with acquiring or using the foreign iron, steel, or
manufactured goods. By waiting until iron, steel, or manufactured goods were ready to be
incorporated or already installed to confirm compliance with Buy American requirements, the


11-R-0700                                                                                      17
city limited its ability to substitute foreign products with domestic products and increased its risk
of losing federal assistance. The city should have determined compliance before products and
materials were ordered.

Documentation for the 18 Items
Since the OIG report was received, the documentation for 17 of the 18 items listed as
not having “meaningful, informative, and specific technical descriptions of activities to
determine if the items were manufactured or substantially transformed in the United
States” has been sent to OIG. The City believes the documentation for these 17 items
now shows they were manufactured or substantially transformed in the U.S. and ask for
OIG to review the documentation. The documents are not included with this response
since they have been transmitted to OIG with acknowledgment of receipt and because
of the large volume of the files. If additional copies are required, they will be provided
upon request.

OIG Response 3: We reviewed the additional documentation and concluded that supporting
documentation in four instances did not provide sufficiently meaningful, informative, and
specific technical descriptions to determine whether the items were manufactured or
substantially transformed in the United States. We revised our report to identify the questioned
items and the documentation deficiency.

The remaining undocumented item is the K-Turbo blowers. The equipment
representative, the Contractor, the consulting engineer and the Asst. City Engineer are
working with K-Turbo and we feel the blowers that are being made in Batavia, IL will be
found “substantially transformed” based on our visit to the fabrication facility and
additional communication. See the attached memo, dated June 21, 2011, from K-Turbo
USA, Inc. USEPA and their consultants have visited K-Turbo in Batavia and have told
us that the feel K-Turbo has the capability to meet the substantially transformation
guidelines. The City is making every effort to assure this is achieved. The Substantial
Transformation checklist is being completed at this time and will be forwarded to OIG in
the near future.

OIG Response 4: Regarding the KTurbo blower, we cannot make a determination on
Section 1605 compliance without the documentation supporting the actual manufacturing
process of the equipment used in the Ottawa project. To date, all information has been
prospective. Because the company has been suspended indefinitely from receiving any new
federal funds, we need to clearly understand KTurbo’s manufacturing process. Supporting
documentation should include: (1) a detailed list of all parts and components and their sources,
supported by bills of lading and invoices; (2) a detailed description of the manufacturing and/or
assembly steps completed in Batavia; (3) a detailed list of manufacturing and/or assembly steps
completed by KTurbo in Korea or any other related or formerly related company in a foreign
country; (4) a detailed description of the specialized labor and tools used in the Batavia facility;
and (5) a detailed description of material and labor costs incurred for the blowers built for the
Ottawa project.




11-R-0700                                                                                          18
The Kaeser blowers are considered to be acceptable based on the submittal letter to
the blower supplier, Peter Lynch, LAI, Ltd. of October 29, 2010 describing substantial
transformation. The letter is similar to a letter regarding similar blowers for a project in
Fredricksburg, VA which we understand was acceptable to USEPA.

OIG Response 5: We reviewed the referenced October 29, 2010, letter during our field work
and discussed our conclusion in the Kaeser example beginning on page 7 of this report. Also, we
were aware of the e-mail sent by an employee from EPA’s Office of Water. We find no authority
in Section 1605 of the Recovery Act or the relevant regulations at 2 CFR Part 176,
“Requirements for Implementing Sections 1512, 1605, and 1606 of the American Recovery and
Reinvestment Act of 2009 for Financial Assistance Awards,” that would authorize EPA to make
a determination of substantial transformation. In fact, EPA’s Determining Substantial
Transformation clearly states that “EPA does not and will not make determinations as to
substantial transformation or the U.S. or foreign origin of manufactured goods.” Since Kaeser
Compressors, Inc., is an affiliate of Kaeser Kompressoren, GmbH, and “the base chassis of
proprietary designed components” was obtained from the parent, we need to clearly understand
the precise steps and costs completed in the United States versus the process and steps completed
in Germany for the actual blowers used in the Ottawa project. Because we did not receive any
new documentation, we did not change our position in the report.

De minimis waiver items
The Contractor has tabulated the cost of all materials in the project, $3,709,957 (see
attached memo). The 5% allowable for non-domestic goods is $185,500 according to
the de minimis waiver, ARRA Section 1605 (b)(1). The identified non-domestic item on
the OIG list is number 39, Specification 15915 – Electric and Electronic Control. This is
the thermostat for hydronic heating system in the sludge dewatering building. Cost =
$248.

Two other items not on the OIG List that are not American made are:
   1. Specification Section 16905: computer and monitor for the SCADA system in the
       operations building. Cost = $1,201
   2. Specification Section 16496 Enclosed Transfer Switch: Cost = $4,863
The total cost of these three items is $6,312. This is 0.17% of the material cost.
Therefore it is accepted within the guidelines of the de minimus waiver.

OIG Response 6: We agree and have revised the report accordingly.

Consulting engineer as Agent for the City
The City hired the consulting firm of McClure Engineering Associates, Inc. for the
Construction Phase services as defined in paragraph A.1.05 of the Agreement between
the Owner and Engineer for Professional Services dated 2/3/2010. The addition of
services for review of the ARRA compliance documentation was authorized in the
weekly project progress review meetings when the need and magnitude of the effort
became apparent. The authorization is recorded in the meeting notes. It is best to
review the ARRA documentation along with the Shop Drawing review since the system
is already in place for review, receiving transmittal from the Contractor, systematic filing


11-R-0700                                                                                      19
and communication with the City on items needing specific involvement of the City staff
or Commissioners. It is normal for the City of Ottawa to rely on the consulting engineer
for such detailed reviews.

OIG Response 7: We agree with the city’s comments. Based on our review of the meeting
notes, which state that the engineering firm received additional responsibilities regarding the
review of Recovery Act Buy American documentation, we have revised the report accordingly.

Project Funding Status
The current financial status of the project cost and the funding are as follows:
The current Construction Contract          $8,233,169.93
              Design Engineering           $ 435,000.00
              Construction Engrg           $ 487,857.86
              Total eligible cost          $9,155,027.79

Funding:      SRF 	 Loan                    $7,720,293.00
              Illinois Clean Energy         $ 250,000.00
              City Bonding                  $1,184,734.79

Excluded items which still comply with ARRA requirements
IEPA has previously eliminated the following items from the project funding as ineligible
cost items:
        OIG List No. Spec. Section         Item                      Cost
        11            11304                RAS Pumps                 $ 65,200
        15            11315                Floating Mixers Equipmt $ 40,000
        18            11336                Grit Removal Equipment $118,100
        19            11337                Rotary Press System       $901,500
        Engineering services associated with the above items         $202,063
        Other construction items                                     $ 57,000
              Total ineligible costs per award letter          $1,419,317
This is to show that the above four items, though they have met the ARRA Buy
American provision are not being covered by the ARRA funding.

OIG Response 8: We agree with the city’s comments. The supporting documentation for the
ineligible items sufficiently demonstrated compliance with Buy American requirements.

On June 2, 2011, Andrew Bielanski, USEPA Region 5 and Mike Grimm, Cadmus
Group, consultant to USEPA, conducted a site visit to review the City’s documentation
of compliance with the terms of the SRF/ARRA loan/grant. Although we have not
received a report from their evaluation, they indicated that our compliance appeared to
be in order.

OIG Response 9: The region’s response to the draft report is in appendix B. We have not
changed our position as a result of the region’s comments.




11-R-0700                                                                                     20
We appreciate the funding provided for our project and have made every effort to
understand the requirements. We feel we have met the requirements up to this date and
will continue to by the time the project is completed later this year. We stand ready to
answer any questions or clarifications need to fully comply. I am available by phone,
815-433-0161 ext 41 or e-mail engineer@cityofottawa.org.

Sincerely,


Robert M. Eschbach
Mayor

cc: 	   John Trefry, via e-mail
        Michael Rickey, via e-mail
        Larry Brannon, via e-mail
        Dave Hall, McClure Engineering

Attachments: de minimus tabulation
             K-Turbo memo, June 21, 2011




11-R-0700                                                                            21
                                                                                    Appendix B

                  Agency Response to Draft Report


MEMORANDUM


SUBJECT:       Final Comments on Draft Report
               American Recovery and Reinvestment Act Site Visit of Wastewater Treatment
               Plant – Phase II Improvements Project, City of Ottawa, Illinois
               Project No. OA-FY11-A-000

FROM:          Susan Hedman /signed July 29, 2011/
               Regional Administrator, Region 5
               U.S. Environmental Protection Agency

TO:            Robert Adachi
               Director of Forensic Audits


We have completed the actions outlined in our memorandum dated June 23, 2011, and are
providing final comments on the draft report, American Recovery and Reinvestment Act Site Visit
of Wastewater Treatment Plant – Phase II Improvements Projects, City of Ottawa, Illinois. The
attached table summarizes our concurrence or non-concurrence with the 18 findings of Recovery
Act non-compliance, the basis and rationale for our determination, and a description of any
corrective actions taken or planned.

We obtained documentation from the City of Ottawa for the 18 questioned items (which was also
provided to the OIG in response to the draft report). We coordinated our review with the Office
of Water to ensure a consistent and fair application of EPA’s Buy American guidance. Our
engineers evaluated product documentation to ensure that the items were either manufactured or
substantially transformed in the United States as required under the Buy American provision.
We also applied EPA’s de minimis waiver for incidental and low-cost items as appropriate.

We conclude that 17 of the 18 items complied with Buy American requirements. One item (K-
Turbo blower) is currently being manufactured, and the city is closely monitoring this process to
ensure that substantial transformation is taking place in the U.S., making the item eligible for
Recovery Act funding. We will monitor this process and take corrective action if we find that
the item did not meet the test of substantial transformation. We will not reduce the amount of
Recovery Act funds applied to this project at this time. If you have any questions, please contact
Debbie Baltazar at 312-886-3205.


Attachment


11-R-0700                                                                                       22
cc:    G
       	 eoff Andres, Manager, Infrastructure Financial Assistance Section, Illinois EPA
       Arnold Bandstra, Assistant City Engineer, City of Ottawa, Illinois
       Arthur A. Elkins, Jr., Inspector General
       Melissa Heist, Assistant Inspector General for Audit
       John Manibusan, EPA OIG Office of Congressional, Public Affairs and Management

bcc: 	 Eric Levy, Audit Follow-up Coordinator, Region 5
       Tinka Hyde, Director, Water Division, Region 5
       Debbie Baltazar, Chief, State and Tribal Programs Branch, Region 5




11-R-0700                                                                                  23
                                                Concur
                                                                                                     Planned
 Item    Section   Equipment     Manufacturer     or            Basis & Rationale for
                                                                                                    Corrective
Number   Number    Description                   Non-              Determination
                                                                                                      Action
                                                concur
  8       08520    Aluminum        Kawneer       Non-    We find the documentation                     N/A
                   Windows                      concur   sufficient to support Buy American
                                                         compliance. Alternatively, the City
                                                         of Ottawa would be reasonably
                                                         justified in claiming these items
                                                         under EPA’s “de minimis” waiver.
                                                          • Kawneer Buy American 
                                                            certification indicates that all 
                                                            Kawneer products are 
                                                            manufactured in 13 locations 
                                                            across the United States.  These 
                                                            domestic construction materials 
                                                            are in compliance with Buy 
                                                            American requirements. 
                                                          • Certification clearly references 
                                                            the Ottawa project. 
                                                          • Bill of Lading lists Kawneer’s 
                                                            facility in Itasca, Illinois as the 
                                                            place of origin for the shipment.  
                                                            The Itasca facility was listed on 
                                                            Kawneer’s Buy American 
                                                            certification. 
                                                          • Bill of Lading indicates two boxes 
                                                            containing window and door 
                                                            frames totaling 141 pounds were 
                                                            shipped.  Due to the very limited 
                                                            quantities of this item, the City of 
                                                            Ottawa would be reasonably 
                                                            justified in claiming these items 
                                                            under EPA’s “de minimis” waiver. 




 11-R-0700                                                                                                   24
                                                Concur
                                                                                                   Planned
 Item    Section   Equipment     Manufacturer     or            Basis & Rationale for
                                                                                                  Corrective
Number   Number    Description                   Non-              Determination
                                                                                                    Action
                                                concur
  10      11300    Progressive      Moyno        Non-    We find the documentation                   N/A
                     Cavity                     concur   sufficient to support Buy American
                     Sludge                              compliance.
                     Pumps                                • Moyno Buy American 
                                                            certification documentation 
                                                            includes two letters dated May 
                                                            11, 2011, and May 27, 2011. 
                                                          • Letters reference pumps 
                                                            provided in the Ottawa project by 
                                                            section number. 
                                                          • Documentation indicates that the 
                                                            only manufacturing facility of 
                                                            Moyno pumps is located in 
                                                            Springfield, Ohio, and it is the 
                                                            sole supplier of Moyno products 
                                                            destined for the US. 
                                                          • Documentation indicates that the 
                                                            following manufacturing 
                                                            operations are performed at the 
                                                            Springfield facility by highly 
                                                            trained individuals:  1) injection 
                                                            molding; 2) machining; 3) buffing; 
                                                            4) chrome plating; 5) pump 
                                                            assembly; 6) unit assembly; and 
                                                            7) painting. 
                                                          • The manufacturing process 
                                                            requires over 100 operations and 
                                                            can take up to 12 weeks of 
                                                            production time for a single 
                                                            pump. 




 11-R-0700                                                                                                 25
                                                Concur
                                                                                                   Planned
 Item    Section   Equipment     Manufacturer     or            Basis & Rationale for
                                                                                                  Corrective
Number   Number    Description                   Non-              Determination
                                                                                                    Action
                                                concur
  11      11304    RAS Pumps       WEMCO         Non-    We find the documentation                   N/A
                                                concur   sufficient to support Buy American
                                                         compliance.
                                                          • WEMCO Buy American 
                                                            certification documentation 
                                                            includes two letters dated May 4, 
                                                            2011, and May 27, 2011. 
                                                          • Letters reference pumps 
                                                            provided in the Ottawa project. 
                                                          • Documentation indicates that the 
                                                            manufacturing facility is located 
                                                            in Salt Lake City, Utah. 
                                                          • Documentation indicates that the 
                                                            following manufacturing 
                                                            operations are performed at the 
                                                            Salt Lake City facility by highly 
                                                            trained individuals such as 
                                                            welders and machinists:  1) 
                                                            machining raw castings and 
                                                            shafts; 2) fabricating base plates 
                                                            and guards; and 3) final assembly 
                                                            involving belts, fasteners, 
                                                            bearings, and gaskets. 
                                                          • The manufacturing process 
                                                            requires a stated minimum of 25 
                                                            different standard procedures.  
                                                            Production time ranges from 
                                                            several weeks to several months 
                                                            depending on the type of pump. 




 11-R-0700                                                                                                 26
                                                Concur
                                                                                                   Planned
 Item    Section   Equipment     Manufacturer     or            Basis & Rationale for
                                                                                                  Corrective
Number   Number    Description                   Non-              Determination
                                                                                                    Action
                                                concur
  12      11310    Submersible     ITT-Flygt     Non-    We find the documentation                   N/A
                     Pumps                      concur   sufficient to support Buy American
                                                         compliance.
                                                          • ITT‐Flygt Buy American 
                                                            certification documentation 
                                                            includes two letters dated 
                                                            February 24, 2010, and June 1, 
                                                            2011.  
                                                          • Letters reference pumps 
                                                            provided in the Ottawa project. 
                                                          • Documentation indicates that the 
                                                            manufacturing facility is located 
                                                            in Pewaukee, Wisconsin. 
                                                          • Documentation indicates that the 
                                                            following manufacturing 
                                                            operations are performed at the 
                                                            Pewaukee facility by highly 
                                                            trained individuals:  1) motor 
                                                            stator installation; 2) rotor unit 
                                                            manufacture; 3) mechanical seal 
                                                            assembly; 4) impeller assembly; 
                                                            5) pump housing assembly; 6) 
                                                            electrical sensor installation and 
                                                            connection; 7) power cable 
                                                            installation; and 8) painting. 
                                                          • Photographs were included with 
                                                            documentation that showed the 
                                                            facility and various 
                                                            manufacturing areas within the 
                                                            facility. 




 11-R-0700                                                                                                 27
                                                Concur
                                                                                                   Planned
 Item    Section   Equipment     Manufacturer     or            Basis & Rationale for
                                                                                                  Corrective
Number   Number    Description                   Non-              Determination
                                                                                                    Action
                                                concur
  13      11311    Submersible     ITT-Flygt     Non-    We find the documentation                   N/A
                    Chopper                     concur   sufficient to support Buy American
                     Pumps                               compliance.
                                                          • ITT‐Flygt Buy American 
                                                            certification documentation 
                                                            includes two letters dated 
                                                            February 24, 2010, and June 1, 
                                                            2011.  
                                                          • Letters reference pumps 
                                                            provided in the Ottawa project. 
                                                          • Documentation indicates that the 
                                                            manufacturing facility is located 
                                                            in Pewaukee, WI. 
                                                          • Documentation indicates that the 
                                                            following manufacturing 
                                                            operations are performed at the 
                                                            Pewaukee facility by highly 
                                                            trained individuals:  1) motor 
                                                            stator installation; 2) rotor unit 
                                                            manufacture; 3) mechanical seal 
                                                            assembly; 4) impeller assembly; 
                                                            5) pump housing assembly; 6) 
                                                            electrical sensor installation and 
                                                            connection; 7) power cable 
                                                            installation; and 8) painting. 
                                                          • Photographs were included with 
                                                            documentation that showed the 
                                                            facility and various 
                                                            manufacturing areas within the 
                                                            facility. 




 11-R-0700                                                                                                 28
                                                Concur
                                                                                                     Planned
 Item    Section   Equipment     Manufacturer     or            Basis & Rationale for
                                                                                                    Corrective
Number   Number    Description                   Non-              Determination
                                                                                                      Action
                                                concur
  16      11330      Electric       Moyno        Non-    We find the documentation                     N/A
                     Grinder                    concur   sufficient to support Buy American
                                                         compliance.
                                                          • Moyno Buy American 
                                                            certification documentation 
                                                            includes two letters dated May 
                                                            11, 2011, and May 27, 2011. 
                                                          • Letters reference pumps 
                                                            provided in the Ottawa project by 
                                                            section number. 
                                                          • Documentation indicates that the 
                                                            only manufacturing facility of 
                                                            Moyno pumps is located in 
                                                            Springfield, Ohio, and it is the 
                                                            sole supplier of Moyno products 
                                                            destined for the US. 
                                                          • Documentation indicates that the 
                                                            following manufacturing 
                                                            operations are performed at the 
                                                            Springfield facility by highly 
                                                            trained individuals:  1) injection 
                                                            molding; 2) machining; 3) buffing; 
                                                            4) chrome plating; 5) pump 
                                                            assembly; 6) unit assembly; and 
                                                            7) painting. 
                                                          • The manufacturing process 
                                                            requires over 100 operations and 
                                                            can take up to 12 weeks of 
                                                            production time for a single 
                                                            pump. 
  21      11338    Chemical         Periflo      Non-    We find the documentation                     N/A
                     Feed                       concur   sufficient to support Buy American
                   Equipment                             compliance.
                                                          • Periflo Buy American certification 
                                                            identifies items provided in the 
                                                            Ottawa project, and states that 
                                                            they were manufactured at 
                                                            Periflo’s manufacturing plant in 
                                                            Loveland, Ohio. 
                                                          •  Documentation detailed the 
                                                            amount of hours (40 hours) 
                                                            required to manufacture the 
                                                            product, the percentage of the 
                                                            final product cost coming for 
                                                            direct labor (45%), level of skilled 
                                                            employees such as machinists 
                                                            and mechanics needed to 
                                                            perform the various operations, 
                                                            and the operations performed. 


 11-R-0700                                                                                                   29
                                                 Concur
                                                                                                         Planned
 Item    Section   Equipment      Manufacturer     or            Basis & Rationale for
                                                                                                        Corrective
Number   Number    Description                    Non-              Determination
                                                                                                          Action
                                                 concur
  22      11370      Positive        Kaeser       Non-    We find the documentation                        N/A
                   Displacement                  concur   sufficient to support Buy American
                      Blower                              compliance.
                                                          • Kaeser Buy American certification 
                                                            documentation includes letter dated 
                                                            October 29, 2010 to sales 
                                                            representative who sold the positive 
                                                            displacement blowers supplied to the 
                                                            Ottawa project.  Additional 
                                                            documentation was also included 
                                                            involving correspondence between 
                                                            Kaeser and EPA Headquarters Office 
                                                            of Water (OW) staff engineers 
                                                            regarding whether the items are 
                                                            “substantially transformed” and 
                                                            actually made/manufactured in the 
                                                            USA. 
                                                          • Documentation indicates that the 
                                                            items are manufactured in at the 
                                                            Kaeser facility in Fredericksburg, 
                                                            Virginia. 
                                                          • Documentation focused on the issue 
                                                            of substantial transformation since 
                                                            questions arose as to whether the 
                                                            products we actually 
                                                            made/manufactured in the USA.  
                                                            Narrative responses from Kaeser 
                                                            provided affirmation to Question #3 
                                                            of EPA’s Substantial Transformation 
                                                            Checklist (“Was the process 
                                                            performed in the USA complex and 
                                                            meaningful?”). 
                                                          • The manufacturing process requires 
                                                            an estimated 16 to 20 hours of labor.  
                                                            The added labor comprises 30 to 50 
                                                            percent of the product’s value. 
                                                          • EPA Headquarters OW staff 
                                                            engineers provided “anticipatory” 
                                                            oversight to address the issue of 
                                                            substantial transformation in order 
                                                            to determine if the products were 
                                                            actually made/manufactured in the 
                                                            USA. 
                                                          • EPA OW staff engineers opined that 
                                                            substantial transformation is 
                                                            occurring at Kaeser’s Fredericksburg, 
                                                            Virginia facility, and that the products 
                                                            are therefore made in the USA.  An e‐
                                                            mail message dated November 1, 
                                                            2010 documents this opinion.  




 11-R-0700                                                                                                       30
                                                Concur
                                                                                                       Planned
 Item    Section   Equipment     Manufacturer      or            Basis & Rationale for
                                                                                                      Corrective
Number   Number    Description                   Non-               Determination
                                                                                                        Action
                                                concur
  23      11375    Centrifugal     K-Turbo      Neither   We cannot yet make a determination          Provide
                    Blower         /Aerzyn      Concur    as to Buy American compliance, as           follow-up
                                                or Non-   the centrifugal blowers for the             review of
                                                concur    Ottawa project have not yet                 the
                                                          completed fabrication/manufacture           substantial
                                                          at the K-Turbo facility in Batavia,         trans-
                                                          IL.                                         formation
                                                           • Representatives from Ottawa              document-
                                                             have been monitoring and                 ation and
                                                             documenting the fabrication and          progress
                                                             manufacture processes while              reports
                                                             applying the standard of                 submitted
                                                             substantial transformation to            by Ottawa.
                                                             verify the blowers are American 
                                                             made. 
                                                           • EPA Headquarters OW provided 
                                                             “anticipatory” oversight to 
                                                             address the issue of substantial 
                                                             transformation in order to 
                                                             determine if the products were 
                                                             actually made or manufactured 
                                                             at the Batavia, IL facility.  An EPA 
                                                             contractor (an engineer) and EPA 
                                                             Region 5 staff engineer were sent 
                                                             to view the fabrication and 
                                                             manufacturing processes at the 
                                                             K‐Turbo Batavia facility in 
                                                             October 2009. 
                                                           • Both the EPA OW staff engineers 
                                                             opined that substantial 
                                                             transformation could occur at K‐
                                                             Turbo’s Batavia, Illinois facility 
                                                             based upon the processes 
                                                             described to them during the 
                                                             visit.   The Batavia facility was not 
                                                             operational as the fit‐up of the 
                                                             facility was not yet fully 
                                                             complete. 




 11-R-0700                                                                                                    31
                                                Concur
                                                                                                     Planned
 Item    Section   Equipment     Manufacturer     or            Basis & Rationale for
                                                                                                    Corrective
Number   Number    Description                   Non-              Determination
                                                                                                      Action
                                                concur
  24      11376     Activated    SSI Aeration    Non-    We find the documentation                     N/A
                     Sludge                     concur   sufficient to support Buy American
                    Aeration                             compliance.
                     System                               • SSI Aeration Buy American 
                                                            certification identifies all items 
                                                            provided in the Ottawa project. 
                                                          • Documentation indicated that 
                                                            the aeration systems are 
                                                            comprised of stainless steel 
                                                            piping and fittings, PVC piping 
                                                            and fittings, fine and course 
                                                            bubble diffusers, and stainless 
                                                            steel support stands.  
                                                            Manufacturing locations were 
                                                            specified for all components, and 
                                                            all are made in the USA. 
                                                          • Mill certifications showing USA 
                                                            origin were provided for the 
                                                            stainless steel piping and fittings. 
  25      11378      WAS         SSI Aeration    Non-    We find the documentation                     N/A
                    Aeration                    concur   sufficient to support Buy American
                    System                               compliance.
                                                          • SSI Aeration Buy American 
                                                            certification identifies all items 
                                                            provided in the Ottawa, IL 
                                                            project. 
                                                          • Documentation indicated that 
                                                            the aeration systems are 
                                                            comprised of stainless steel 
                                                            piping and fittings, PVC piping 
                                                            and fittings, fine and course 
                                                            bubble diffusers, and stainless 
                                                            steel support stands.  
                                                            Manufacturing locations were 
                                                            specified for all components, and 
                                                            all are made in the USA. 
                                                          • Mill certifications showing USA 
                                                            origin were provided for the 
                                                            stainless steel piping and fittings. 




 11-R-0700                                                                                                   32
                                                Concur
                                                                                                   Planned
 Item    Section   Equipment     Manufacturer     or            Basis & Rationale for
                                                                                                  Corrective
Number   Number    Description                   Non-              Determination
                                                                                                    Action
                                                concur
  8       13424     Dissolved     ITT-Royce      Non-    We find the documentation                   N/A
                     Oxygen                     concur   sufficient to support Buy American
                    Monitor                              compliance.
                                                          • ITT‐Royce Buy American 
                                                            certification indicates that the 
                                                            products listed on the 
                                                            certification are manufactured in 
                                                            Charlotte, North Carolina. 
                                                          • Model/part numbers are listed 
                                                            for the items provided for the 
                                                            Ottawa project including 
                                                            quantities. 
                                                          • The ITT‐Royce Buy American 
                                                            certification is simple but 
                                                            sufficient. 
  31      15260    Plant Pipe     Clow Water     Non-    We find the documentation                   N/A
                    and Pipe       Systems      concur   sufficient to support Buy American
                    Fittings                             compliance.
                                                          • Clow Water Systems Buy 
                                                            American certification states that 
                                                            all manufacturing of their 6 inch 
                                                            to 36 inch diameter ductile iron 
                                                            pipe and fittings is done at their 
                                                            Coshocton, Ohio facility with 
                                                            exception of 3 inch and 4 inch 
                                                            diameter pipe which are 
                                                            outsourced and produced by 
                                                            other domestic producers such as 
                                                            Atlantic States Pipe, McWane 
                                                            Pipe, or Griffin Pipe. 
                                                          • All mechanical joint fittings and 
                                                            flanges are stamped “Made in 
                                                            the USA.” 
                                                          • Clow Water Systems website 
                                                            provides additional Buy American 
                                                            information on their website at 
                                                            http://www.clowwatersystems.c
                                                            om . 




 11-R-0700                                                                                                 33
                                                 Concur
                                                                                                     Planned
 Item    Section   Equipment     Manufacturer      or            Basis & Rationale for
                                                                                                    Corrective
Number   Number    Description                    Non-              Determination
                                                                                                      Action
                                                 concur
  33      15410     Plumbing      Amtrol, Inc.    Non-    We find the documentation                    N/A
                     Fixtures                    concur   sufficient to support Buy American
                                                          compliance. Alternatively, the City
                                                          of Ottawa would be reasonably
                                                          justified in claiming these items
                                                          under EPA’s “de minimis” waiver.
                                                           • Amtrol, Inc. Buy American 
                                                             certification indicates that Amtrol 
                                                             products are manufactured in 
                                                             two locations in the United States 
                                                             – Paducah, Kentucky and West 
                                                             Warwick, Rhode Island. 
                                                           • The Amtrol, Inc. certification is 
                                                             simple but sufficient. 
                                                           • Amtrol, Inc. provided a thermal 
                                                             expansion tank of approximately 
                                                             one gallon in size for the water 
                                                             supply plumbing to a water 
                                                             heater.  Due to the single 
                                                             quantity and low cost of this item 
                                                             the City of Ottawa would be 
                                                             reasonably justified in claiming 
                                                             the item under EPA’s “de 
                                                             minimis” waiver. 




 11-R-0700                                                                                                   34
                                                 Concur
                                                                                                     Planned
 Item    Section   Equipment      Manufacturer     or            Basis & Rationale for
                                                                                                    Corrective
Number   Number    Description                    Non-              Determination
                                                                                                      Action
                                                 concur
  38      15832     Power          Greenheck      Non-    We find the documentation                    N/A
                   Ventilators                   concur   sufficient to support Buy American
                                                          compliance.
                                                           • Greenheck Buy American 
                                                             certification documentation 
                                                             includes three documents dated 
                                                             November 17, 2010; January 19, 
                                                             2011; and April 20, 2011. 
                                                           • Documentation clearly references 
                                                             the Ottawa project via order 
                                                             number/project name, and the 
                                                             two earlier documents also list 
                                                             Greenheck model numbers. 
                                                           • Documentation indicates that 
                                                             items supplied for the Ottawa 
                                                             project were manufactured at 
                                                             Greenheck facilities in Schofield, 
                                                             Wisconsin; Mosinee, Wisconsin; 
                                                             and Frankfort, Kentucky. 
                                                           • The estimated production time 
                                                             for the items supplied for the 
                                                             Ottawa project is 60 hours. 
                                                           • Documentation indicates that 
                                                             approximately 540 steps were 
                                                             involved in completing the items 
                                                             supplied for the Ottawa project.  
                                                             The manufacturing processes 
                                                             utilized roll formers, stamping 
                                                             machines and fixturing 
                                                             equipment to allow for consistent 
                                                             and quality construction of 
                                                             products. 
  39      15915    Electric and     Tekmar        Non-    This item qualifies under EPA’s “de          N/A
                    Electronic                   concur   mimimis” waiver.
                     Control                               • Information from the City of 
                                                             Ottawa indicates this is a low cost 
                                                             (approximately $250) item that 
                                                             can be claimed under EPA’s “de 
                                                             minimis” waiver.  The City of 
                                                             Ottawa did claim this item under 
                                                             EPA’s “de minimis” waiver. 




 11-R-0700                                                                                                   35
                                                 Concur
                                                                                                   Planned
 Item    Section   Equipment     Manufacturer      or           Basis & Rationale for
                                                                                                  Corrective
Number   Number    Description                    Non-             Determination
                                                                                                    Action
                                                 concur
  42      16130      Boxes       Cooper B-Line    Non-    We find the documentation                  N/A
                                                 concur   sufficient to support Buy American
                                                          compliance. Alternatively, the City
                                                          of Ottawa would be reasonably
                                                          justified in claiming these items
                                                          under EPA’s “de minimis” waiver.
                                                           • Cooper B‐Line Buy American 
                                                             certification documentation 
                                                             includes documentation dated 
                                                             December 16, 2010 and June 2, 
                                                             2011. 
                                                           • Documentation clearly references 
                                                             the Ottawa, IL project via order 
                                                             number, and the earlier 
                                                             documentation also lists Cooper 
                                                             B‐Line part/product numbers. 
                                                           • Documentation indicates that 
                                                             items supplied for the Ottawa 
                                                             project were manufactured at 
                                                             the Cooper B‐Line Highland, 
                                                             Illinois facility. 
                                                           • The Cooper B‐Line Buy American 
                                                             certification is simple but 
                                                             sufficient. 
                                                           • Cooper B‐Line provided rigid 
                                                             conduit of various pipe diameters 
                                                             (3/4”, 1”, 1 ½”, 2”, 3”, and 4”) 
                                                             plus galvanized strut channel.  
                                                             Since these products could be 
                                                             considered incidental to the 
                                                             construction of the project the 
                                                             City of Ottawa would be 
                                                             reasonably justified in claiming 
                                                             the items under EPA’s “de 
                                                             minimis” waiver. 




 11-R-0700                                                                                                 36
                                                Concur
                                                                                                   Planned
 Item    Section   Equipment     Manufacturer     or            Basis & Rationale for
                                                                                                  Corrective
Number   Number    Description                   Non-              Determination
                                                                                                    Action
                                                concur
  53      16620    Packaged         Kohler       Non-    We find the documentation                   N/A
                   Engine                       concur   sufficient to support Buy American
                   Generator                             compliance
                   System                                 • Kohler Buy American certification 
                                                            documentation includes 
                                                            documentation dated November 
                                                            17, 2010 and June 2, 2011. 
                                                          • Documentation clearly references 
                                                            the Ottawa project. 
                                                          • Documentation indicates that the 
                                                            manufacturing was performed at 
                                                            Kohler’s facility in Sheboygan, 
                                                            Wisconsin. 
                                                          • Documentation indicates that the 
                                                            following manufacturing 
                                                            operations are performed at the 
                                                            Sheboygan facility:  1) metal 
                                                            fabrication, including 
                                                            manufacturing skids, support 
                                                            brackets, controller boxes, 
                                                            panels, and enclosures; 2) 
                                                            electrical manufacturing, 
                                                            including circuit boards, 
                                                            controllers, and battery chargers; 
                                                            and 3) generator set final 
                                                            assembly processes, including 
                                                            mounting the engine and wiring, 
                                                            installing the cooling system for 
                                                            the motor, and installing the 
                                                            exhaust system. 
                                                          • The manufacturing process 
                                                            required over 200 hours of labor 
                                                            for the generator provided for 
                                                            the Ottawa project. 




 11-R-0700                                                                                                 37
                                                                                     Appendix C

                Illinois EPA Response to Draft Report
217/782-2027

June 24, 2011

Mr. Larry Brannon
EPA-OIG
77 W. Jackson Boulevard, Mail Code IA-13J
Chicago, IL 60604

Re: 	 Draft Report: American Recovery and Reinvestment Act Site Visit of Wastewater
      Treatment Plant – Phase II Improvements Project, City of Ottawa, Illinois

Dear Mr. Brannan:

The State of Illinois is in concurrence with the recommendation that the Region 5 Regional
Administrator employ the procedures in 2 CFR 176.130 to resolve the issues of noncompliance
on the Ottawa project.

The City of Ottawa has invested a considerable amount of time and resources in a cooperative
effort with the USEPA in an effort to resolve these issues. It is our opinion that the City did not
intentionally disregard the Buy American requirements of the Recovery Act, and that there was
no malfeasance on the part of City officials. The Illinois EPA urges the continued cooperation of
the parties involved.

If you need further information regarding this response, or regarding the City of Ottawa project
that is the subject of the draft report, please feel to contact Geoff Andres of my staff at 217/782-
2027. Thank you.


Sincerely,




Lisa Bonnett
Interim Director


Cc: 	   Robert Adachi, EPA-OIG
        Susan Hedman, USEPA Administrator, Region 5
        Robert M. Esbach, Mayor, City of Ottawa, Illinois



11-R-0700                                                                                        38
                                                                            Appendix D

                                    Distribution
Office of the Administrator
Regional Administrator, Region 5
Assistant Administrator for Water
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Grants and Interagency Agreements Management Division,
     Office of Administration and Resources Management
Audit Followup Coordinator, Region 5
Public Affairs Officer, Region 5
Director, Water Division, Region 5
Chief, State and Tribal Programs Branch, Region 5
Interim Director, Illinois Environmental Protection Agency
Mayor, City of Ottawa, Illinois
Assistant City Engineer, City of Ottawa, Illinois




11-R-0700                                                                           39
